<html>
<title> - POLICY RELEVANT CLIMATE ISSUES IN CONTEXT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                        POLICY RELEVANT CLIMATE

                           ISSUES IN CONTEXT

=======================================================================



                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        THURSDAY, APRIL 25, 2013

                               __________

                           Serial No. 113-24

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
80-563                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           ROBIN KELLY, Illinois
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
VACANCY
                                 ------                                

                      Subcommittee on Environment

                    HON. CHRIS STEWART, Utah, Chair
F. JAMES SENSENBRENNER, JR.,         SUZANNE BONAMICI, Oregon
    Wisconsin                        JULIA BROWNLEY, California
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              MARC VEASEY, Texas
PAUL C. BROUN, Georgia               MARK TAKANO, California
RANDY WEBER, Texas                   ALAN GRAYSON, Florida
                                     EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas


                            C O N T E N T S

                        Thursday, April 25, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Chris Stewart, Chairman, Subcommittee 
  on Environment, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................     7
    Written Statement............................................     8

Statement by Representative Suzanne Bonamici, Ranking Minority 
  Member, Subcommittee on Environment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    10
    Written Statement............................................    11

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    13
    Written Statement............................................    14

                               Witnesses:

Dr. Judith Curry, Professor, School of Earth and Atmospheric 
  Sciences, Georgia Institute of Technology
    Oral Statement...............................................    15
    Written Statement............................................    18

Dr. William Chameides, Dean and Professor, Nicholas School of the 
  Environment, Duke University
    Oral Statement...............................................    34
    Written Statement............................................    36

Dr. Bjorn Lomborg, President, Copenhagen Consensus Center
    Oral Statement...............................................    46
    Written Statement............................................    48

Discussion.......................................................    72

             Appendix I: Answers to Post-Hearing Questions

Dr. Judith Curry, Professor, School of Earth and Atmospheric 
  Sciences, Georgia Institute of Technology......................    88

Dr. Bjorn Lomborg, President, Copenhagen Consensus Center........    90

            Appendix II: Additional Material for the Record

Submitted statement by Eddie Bernice Johnson, Ranking Member, 
  Committee on Science, Space and Technology.....................    94


               POLICY RELEVANT CLIMATE ISSUES IN CONTEXT

                              ----------                              


                        THURSDAY, APRIL 25, 2013

                  House of Representatives,
                                Subcommittee on Environment
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Chris 
Stewart [Chairman of the Subcommittee] presiding.



[GRAPHIC] [TIFF OMITTED] 


    Chairman Stewart. The Subcommittee on the Environment will 
come to order. Good morning, everyone. Welcome to today's 
hearing, entitled ``Policy Relevant Climate Issues in 
Context.'' In front of you are packets containing the written 
testimonies, biographies, and truth in testimony disclosures 
for today's witness panels.
    I now recognize myself for five minutes for an opening 
statement.
    First, I would like to welcome the witnesses today. I thank 
you for your service, and for your sacrifice in being here with 
us. We look forward to an interesting exchange with you. I will 
have a chance to introduce the witnesses later on. I would also 
like to welcome the full Committee Chairman, Chairman Smith.
    At his State of the Union address last month President 
Obama cited as evidence of climate change that heat waves, 
droughts, wildfires, and floods are all now more frequent and 
intense. After calling this issue one of the greatest 
priorities of his second term, he then signaled his intention 
to move forward with aggressive actions in climate change. 
While the details of the President's plans are not yet known, 
today's hearing is intended to provide Members a high level 
overview of the key factors that should inform our decision-
making on what is, unfortunately, one of the most controversial 
public policy issues of our day.
    Nobel Prize winning physicist Niels Bhor, later followed by 
the noted philosopher Yogi Berra, famously said, ``Prediction 
is very difficult, especially if it is about the future.'' The 
scientific and political rhetoric associated with climate 
change would benefit greatly from the humility espoused by 
these two gentlemen. For example, the number and complexity of 
factors influencing climate, from land and oceans, to sun and 
clouds, make precise long term temperature predictions an 
extremely difficult challenge. This may help explain why 
consensus climate models, likely to serve as a basis for major 
economy-wide regulatory actions, have such poor track records. 
These models regularly overstate the actual temperature changes 
and have failed to predict the current 16 year absence of 
global warming. And I would like to emphasize that point, if I 
could. Contrary to the predictions of almost all modeling, over 
the past 16 years there has been a complete absence of 
climate--global warming.
    There are two obvious lessons here. First, modeling 
predictions are not infallible. And second, while we encounter 
those who claim to know precisely what our future climate will 
look like, and then attack anyone who may disagree with them, 
when that happens, we have stepped out of the arena of science 
and into the arena of politics and ideology. And it is 
important to recognize that the direction we choose to take on 
climate change is not resolved by science alone. Once the 
scientific analysis is complete, we must then make value 
judgments and economic decisions based on a real understanding 
of the costs and benefits of any proposed actions. It is 
through this lens that we should review the President's 
forthcoming executive actions and proposed regulations.
    While we still don't know the specifics of the President's 
plans, we know enough to cause people such as myself great 
concern. I am worried that his anticipated restrictions in 
industrial CO<INF>2</INF> emissions may have no discernible 
impact on the climate, but will amount to a significant energy 
tax on the American people. And it is important to note this 
isn't a cost that you can pass on to the millionaires and the 
billionaires that the administration likes to talk about. Much 
of these additional costs will be borne by those who can least 
afford it, retirees on fixed income, young families, and those 
on the bottom of the rung of the economic ladder. The 
President's proposals will also reduce our economic activity at 
a time when we can least afford it, while sending jobs overseas 
to countries like China and India.
    If you care about the poor and the disadvantaged among us, 
then you must be very careful as you consider some of the 
President's proposals to combat climate change. The bottom line 
is this, not only should we consider the science behind climate 
change, but also the economic costs of implementing any 
suggested remedies. I look forward to discussing this in 
further detail with our witnesses today, and learning more 
about the best approach to this important issue of energy, 
climate, and the environment.
    I yield back the balance of my time, and recognize the 
Ranking Member, Ms. Bonamici, for her opening statement.
    [The prepared statement of Mr. Stewart follows:]

       Prepared Statement of Subcommittee Chairman Chris Stewart

    Good morning and welcome to this morning's Environment Subcommittee 
hearing entitled ``Policy Relevant Climate Issues in Context.''
    At his State of the Union address earlier this year, President 
Obama cited as evidence of climate change that ``heat waves, droughts, 
wildfires, and floods--all are now more frequent and intense.'' After 
calling this issue one of the greatest priorities of his second term, 
he then signaled his intention to move forward with aggressive actions 
to combat climate change. Today's hearing is intended to provide 
Members a high-level overview of the key factors that should inform our 
decision-making on what is unfortunately one of the most controversial 
public policy issues of our day.
    Nobel Prize-winning physicist Neils Bohr--later followed by noted 
philosopher Yogi Berra--famously said, ``Prediction is very difficult, 
especially if it's about the future.'' The scientific and political 
rhetoric associated with climate change could benefit greatly from the 
humility espoused by these two gentlemen.
    For example, the number and complexity of factors influencing 
climate-from land and oceans to the sun and clouds-make precise long-
term temperature predictions an extremely difficult challenge. This may 
help explain why ``consensus'' climate models likely to serve as the 
basis for major, economy-wide regulatory actions have such poor track 
records. These models regularly overestimate actual temperature changes 
and have failed to predict the current 16-year absence of global 
warming. And let me emphasize this last statement--contrary to the 
predictions of almost all modeling, over the past 16 years there has 
been a complete absence of global warming.
    There are two obvious lessons here. First, modeling predictions are 
not infallible. Second, when we encounter those who claim to know 
precisely what our future climate will look like, and then attack any 
who may disagree with them, we have stepped out of the arena of science 
and into the arena of politics and ideology.
    It is also important to recognize that the direction we choose to 
take on climate change is not resolvable by science alone. Once the 
scientific analysis is complete, we must then make value judgments and 
economic decisions based on a real understanding of the costs and 
benefits of any proposed actions.
    It is through this lens that we should review the President's 
forthcoming executive actions and proposed regulations.
    While we still don't know all the specifics of the President's 
plan, we know enough to cause me great concern. I am worried that his 
anticipated restrictions on industrial CO<INF>2</INF> emissions may 
have no discernible impact on climate, but will amount to a significant 
energy tax on the American people. I am also concerned that his 
proposals will reduce our economic activity at a time when we can least 
afford to do that, while sending jobs overseas to countries such as 
China and India. I look forward to discussing this in further detail 
with our witnesses today, and learning more about how best to approach 
the important issues of energy, climate, and the environment.
    I yield back the balance of my time, and recognize Ranking Member 
Bonamici for an opening statement.
    Ms. Bonamici. Thank you very much, Mr. Chairman, for 
holding this hearing. I would like to thank our witnesses for 
being here today. This is an important issue. In fact, I want 
to thank the chair of the full Committee as well. Ranking 
Member Eddie Bernice Johnson and I sent a letter before this 
earlier scheduled hearing emphasizing the importance of this 
topic.
    The reality of climate change is increasingly impossible to 
deny. Over the past 25 years numerous scientists from the 
United States and around the world have appeared before 
Congress to testify about climate change. Countless peer review 
studies have shown that climate change is real, and that humans 
are a significant contributing factor. Now we must shift the 
debate to planning, and discuss what actions we should take to 
mitigate the environmental, economic, and health effects that 
will inevitably hit our communities.
    The stated subject of this hearing is policy relevant 
climate issues. Because a preponderance of scientific evidence 
shows that human activity is contributing to changes in the 
global climate, I submit that all climate change issues have 
become policy relevant. The United States, a large historical 
producer, and second largest current producer of greenhouse 
gases, bears a great responsibility to the rest of the world to 
ensure that we promote policies that will reduce the amount of 
greenhouse gases we continue to place in the Earth's 
atmosphere. We have the talent and ability to take on this 
important leadership role. We should also, as a country, have 
the will to do so.
    Glacial withdrawal, loss of sea ice, ocean acidification, 
rising temperatures in sea levels are real and measurable 
problems. Although the effects of climate change are global, 
the impacts of this change are already felt throughout the 
United States. Recent droughts in the American southwest and 
historic severe weather events throughout the country are 
recent examples. According to the National Oceanic and 
Atmospheric Administration and NASA, 2012 was the warmest year 
on record in the United States, and the nine warmest years have 
all occurred since 1998.
    Climate change affects our economy. In my State of Oregon, 
we have developed a reputation for growing quality wine grapes, 
including world renowned Pinot Noir. Much of the quality is 
attributable to the climate in Oregon, where the Pinot grapes 
grow at a temperature range between 57 and 61 degrees. Even a 
minor variation in temperature can threaten the continued 
quality, and hence value, to the Oregon economy of wines in the 
region.
    Another important impact of global climate change on the 
economy in the Pacific Northwest, and other coastal areas, 
includes the effect of ocean acidification on the shellfish 
industry. The district I represent is home to a thriving 
fishing community, and in recent years oceanic and atmospheric 
changes have caused low oxygen content in the water, hypoxia, 
that has created dead zones that kill fish, crab, and other 
marine life. Agriculture and fishing are just two examples of 
industries concerned about climate change, and they are looking 
to their policymakers for solutions.
    Climate change also has broad implications on other aspects 
of our Nation's economy. The Federal Government assists those 
who are hard hit by harsh weather events, and scientists point 
to increasingly severe weather patterns as further evidence of 
the changing climate. The Government Accountability Office 
recently released a report that, for the first time, lists 
climate change as a significant financial risk to the Federal 
Government. The report adds that the Federal Government is not 
well positioned to address the fiscal exposure presented by 
climate change.
    As a Nation, we are becoming too familiar with the 
consequences of waiting until the 11th hour to develop 
solutions to the problems we face. Let us not make the mistake 
with something as serious as climate change. And even though we 
may have differences of opinion about what is causing climate 
change, we can still discuss the economic gains we can make by 
investing in a clean energy economy, modernizing our 
infrastructure, and seeking energy independence. The United 
States has been a leader in renewable energy technology and 
climate research. We must continue our leadership if we intend 
to leave our children and grandchildren a clean and healthy 
environment in which they can thrive economically.
    Thank you, Mr. Chairman. I look forward to the testimony 
from these experts today, and I yield back the balance of my 
time.
    [The prepared statement of Ms. Bonamici follows:]

   Prepared Statement of Subcommittee Ranking Member Suzanne Bonamici

    Mr. Chairman, thank you for holding this hearing, and I would like 
to thank our witnesses for being here today.
    The reality of climate change is increasingly impossible to deny. 
Over the past 25 years, numerous scientists from the United States and 
around the world have appeared before Congress to testify about climate 
change. Countless peer-reviewed studies have shown that climate change 
is real and that humans are a significant contributing factor. Now we 
must shift the debate to planning and discuss what actions we should 
take to mitigate the environmental, economic, and health effects that 
will inevitably hit our communities.
    The stated subject of this hearing is ``policy-relevant'' climate 
issues. Because a preponderance of scientific evidence shows that human 
activity is leading to changes in the global climate, I submit that all 
climate issues have become ``policy-relevant.'' The United States, a 
large historical producer and second largest current producer of 
greenhouse gases, bears a great responsibility to the rest of the world 
to ensure that we promote policies that will reduce the amount of 
greenhouse gases we continue to place in the Earth's atmosphere. We 
have the talent and ability to take on this important leadership role; 
we should also, as a country, have the will to do so.
    Glacial withdrawal, loss of sea ice, ocean acidification, and 
rising temperatures and sea levels are real and measurable problems. 
Although the effects of climate change are global, the impacts of this 
change are already felt throughout the U.S. Record droughts in the 
American Southwest and historic severe weather events throughout the 
country are recent examples. According to the National Oceanic and 
Atmospheric Administration (NOAA) and NASA, 2012 was the warmest year 
on record for the United States, and the nine warmest years have all 
occurred since 1998.
    Climate change affects our economy. Oregon has developed a 
reputation for growing quality wine grapes, including the world-
renowned pinot noir. Much of the quality is attributable to the climate 
in Oregon, where the pinot grapes grow in a temperature range of 
between 57 and 61 degrees, and even a minor variation in temperature 
can threaten the continued quality--and hence, value to the Oregon 
economy-of wines in the region.
    Another important economic impact of global climate change in the 
Pacific Northwest and in many coastal areas is the effect of ocean 
acidification on the shellfish industry. My district is home to a 
thriving fishing community. In recent years, oceanic and atmospheric 
changes have caused low-oxygen content in the water--a condition known 
as hypoxia--that has created dead zones that kill fish, crab, and other 
marine life.
    Agriculture and fishing are just two examples of industries 
concerned about climate change--they are looking to their policymakers 
for solutions.
    Climate change also has broad implications on other aspects of our 
nation's economy. The federal government assists those who are hit hard 
by harsh weather events, and scientists point to increasingly severe 
weather patterns as further evidence of the changing climate. The 
Government Accountability Office recently released a report that, for 
the first time, lists climate change as a ``significant financial risk 
to the federal government.'' The report adds ``the federal government 
is not well-positioned to address the fiscal exposure presented by 
climate change.''
    As a nation, we are becoming too familiar with the consequences of 
waiting until the eleventh hour to develop solutions to the problems we 
face. Let's not make that mistake with something as serious as climate 
change. And even though we may have differences of opinion about what 
is causing climate change, but we can still discuss the economic gains 
we can make by investing in a clean energy economy, modernizing our 
infrastructure, and seeking energy independence. The United States has 
been a leader in renewable energy technology and climate research. We 
must continue our leadership if we intend to leave our children and 
grandchildren a clean and healthy environment in which they can thrive 
economically.
    Thank you, and I yield back the balance of my time.
    Chairman Stewart. Thank you, Ms. Bonamici.
    I now recognize the chair of the full Committee, Mr. Smith, 
for his opening statement.
    Chairman Smith. Thank you, Mr. Chairman.
    Mr. Chairman, climate change is an issue that needs to be 
discussed thoughtfully and objectively. Unfortunately, it is 
sometimes surrounded by claims that conceal the facts and 
hinder the proper weighing of policy decisions. I believe in 
the integrity of science, and challenging accepted beliefs 
through open debate and critical thinking is a primary part of 
the scientific process. To make rational decisions about 
climate change, we need to examine the relevant scientific 
issues, along with the costs and benefits, and better 
understand the uncertainties that surround both.
    As we will hear today, there is still a great amount of 
uncertainty associated with our understanding of human 
influences on climate. A recent article in ``The Economist'' 
pointed out that climate models have greatly over-predicted 
warming. In fact, global temperatures have held steady over the 
last 15 years, despite rising greenhouse gas emissions. ``The 
Economist'' calls the lack of warming a surprise. It notes that 
the climate might be changing in ways not properly understood, 
which could have profound significance for climate science, and 
for environmental and social policy. This statement, from a 
respected publication that had previously supported aggressive 
emission controls, highlights the complexity of the climate 
issue. It calls attention to the limits of our understanding as 
to its causes. There is still much we don't know.
    I am concerned that the administration now seeks to lock in 
an inflexible regulatory framework based on a limited 
understanding of the challenge. I am also concerned that these 
regulations may hinder economic development and our ability to 
deal with this and other challenges that lie before us. Several 
Federal Government agencies have implemented policies that 
drive up energy prices, burden employers, and cost us jobs, but 
many of these rules have no meaningful impact on climate 
change.
    For example, the Environmental Protection Agency proposed 
standards that virtually prohibit new coal fired power plants 
from being built, and regulations that affect existing power 
plants and refineries may soon follow. Analysis of EPA's 
regulatory options reveal that these regulations will 
significantly increase the price of electricity and gasoline. 
At the same time, the agency has stated that cutting U.S. 
emissions will have little or no effect on global greenhouse 
gas concentrations due to growing emissions in a developing 
world, particularly China and India.
    A recent Energy Information Administration report shows 
that U.S. reductions in emissions have little effect globally. 
It found that U.S. domestic carbon dioxide emissions decreased 
by 12 percent between 2005 and 2012, more than any other 
nation. Global emissions actually increase by 15 percent over 
roughly the same period. Affordable, reliable energy is key to 
a healthy economy. American consumers and small and large 
businesses all depend on reliable and affordable energy. It is 
only through sustained economic growth that we will be able to 
make the investments in research and technology necessary to 
fully understand and properly deal with problems like climate 
change. We should take a step back from the claims of impending 
catastrophe and think critically about what we know, and what 
we don't know, about this issue. While it may require us to 
question some accepted views, that may be what is necessary for 
us to fully understand the signs of climate change and 
determine a rational policy response.
    Mr. Chairman, I just want to make the observation that I 
think this is an exceptionally knowledgeable panel of experts 
and witnesses we have before us today, and I very much look 
forward to their testimony. Now I yield back.
    [The prepared statement of Mr. Smith follows:]

        Prepared Statement of Committee Chairman Lamar S. Smith
    Climate change is an issue that needs to be discussed thoughtfully 
and objectively. Unfortunately, it's sometimes surrounded by claims 
that conceal the facts and hinder the proper weighing of policy 
options.
    I believe in the integrity of science. And I find it unfortunate 
that those who question certain scientific views on climate have their 
motives impugned. Challenging accepted beliefs through open debate and 
critical thinking is a primary part of the scientific process. To make 
a rational decision on climate change, we need to examine the relevant 
scientific issues along with the costs and benefits and better 
understand the uncertainties that surround both.
    As we will hear today, there is still a great amount of uncertainty 
associated with our understanding of human influences on climate. A 
recent article in The Economist pointed out that climate models have 
greatly over-predicted warming. In fact, global temperatures have held 
steady over the past 15 years despite rising greenhouse gas emissions.
    The magazine calls the lack of warming a ``surprise.'' It notes 
that the climate might be changing in ways not properly understood, 
which ``could have profound significance for climate science and for 
environmental and social policy.''
    This statement, from a respected publication that had previously 
supported aggressive emission limits, highlights the complexity of the 
climate issue. It calls attention to the limits of our understanding as 
to its causes. Indeed, there is much we don't know. I am concerned that 
the Administration now seeks to lock in an inflexible regulatory 
framework based on a limited understanding of the challenge. I'm also 
concerned that these regulations may hinder economic development and 
our ability to deal with this and other challenges that lie before us.
    Several federal government agencies now implement policies that 
drive up energy prices, burden employers and cost us jobs. But, many of 
these rules have no meaningful impact on climate change. For example, 
the Environmental Protection Agency (EPA) has proposed standards that 
virtually prohibit new coal-fired power plants from being built. And 
regulations that affect existing power plants and refineries are soon 
to follow. Analyses of EPA's regulatory options reveal that these 
regulations will significantly increase the price of electricity and 
gasoline.
    At the same time, the Agency has stated that cutting U.S. emissions 
will have little or no effect on global greenhouse gas concentrations 
due to growing emissions in the developing world, particularly China 
and India. A recent Energy Information Administration report shows that 
U.S. reductions in emissions have little effect globally. It found that 
U.S. domestic carbon dioxide emissions decreased by 12 percent between 
2005 and 2012--more than any other nation. Global emissions actually 
increased by 15 percent over roughly the same period.
    Affordable, reliable energy is key to a healthy economy. American 
consumers and small and large businesses all depend on reliable and 
affordable energy. It is only through sustained economic growth that we 
will be able to make the investments in research and technology 
necessary to fully understand and properly deal with problems like 
climate change. We should take a step back from the claims of impending 
catastrophe and think critically about what we know and what we don't 
know about this issue.
    While it may require us to question some scientific views, that may 
be what is necessary for us to fully understand the science of climate 
change and determine a rational policy response.
    Chairman Stewart. Thank you, Chairman Smith.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time I would like to introduce our witnesses, and, 
as the full Committee Chairman recognized, this is an 
extraordinary panel.
    Our first witness is Dr. Judith Curry, Professor and Chair 
of the School of Earth and Atmospheric Sciences at Georgia 
Institute of Technology, and President of the Climate Forecast 
Applications Network. Prior to joining Georgia Tech, she had 
faculty positions at the University of Colorado, Penn State 
University, and Perdue University. Dr. Curry also currently 
serves as the NASA Advisory Council, Earth Science 
Subcommittee, and the DOE Biological and Environment Research 
Advisory Committee. Dr. Curry received a Ph.D. in atmospheric 
science from the University of Chicago in 1982.
    Our second witness today is Dr. William Chameides, Dean and 
Professor at the Nicholas School of the Environment, Duke 
University. Dr. Chameides has over 30 years of experience in 
academia as professor, researcher, and teacher. He is a member 
of the National Academy of Sciences. Previously Dr. Chameides 
worked at the Environmental Defense Fund as a chief scientist. 
He received his Ph.D. from Yale University.
    Our final witness today is Dr. Bjorn Lomborg, Director of 
the Copenhagen Consensus Center, and adjunct professor at the 
Copenhagen business school. Dr. Lomborg is one of ``Time'' 
magazine's 100 most influential people, and one of the 75 most 
influential people of the 21st century, according to 
''Esquire'' magazine. Dr. Lomborg received his Ph.D. in 
political science at the University of Copenhagen.
    As our witnesses should know, and I am sure that you do, 
spoken testimony is limited to five minutes each, after which 
the Members of the Committee will have five minutes each to ask 
you questions.
    I recognize now Dr. Curry for five minutes to present her 
testimony.

           TESTIMONY OF DR. JUDITH CURRY, PROFESSOR,

           SCHOOL OF EARTH AND ATMOSPHERIC SCIENCES,

                GEORGIA INSTITUTE OF TECHNOLOGY

    Dr. Curry. I would like to thank the Subcommittee for the 
opportunity to offer testimony this morning. My name is Judith 
Curry. I am chair of the School of Earth and Atmospheric 
Sciences at Georgia Tech. For the past 30 years I have 
conducted research on topics that include climate feedback 
processes in the Arctic, the role of clouds and aerosols in the 
climate system, and the impact of climate change on hurricanes. 
As president of a small company, Climate Forecast Applications 
Network, I have worked with decision-makers on climate impact 
assessments and using short term climate forecasts to support 
adaptive management. I am also proprietor of the weblog 
Climate, Et Cetera.
    For the past several years I have been promoting dialogue 
across a full spectrum of beliefs and opinion on the climate 
debate. I have learned about the complex reasons that 
intelligent, educated, and well-informed people disagree on the 
subject of climate change, as well as tactics used by both 
sides to try to gain political advantage in the debate. Through 
my company, I have learned about the complexity of different 
decisions that depend on weather and climate information. I 
have learned the importance of careful determination and 
communication of forecast uncertainty, and the added challenges 
associated with predicting extreme weather events. I have found 
that the worst prediction outcome is a prediction issued with a 
high level of confidence that turns out to be wrong. A close 
second is missing the possibility of an extreme event.
    If all other things remain equal, it is clear that adding 
more carbon dioxide to the atmosphere will warm the planet. 
However, the real difficulty is that nothing remains equal, and 
reliable prediction of the impact of carbon dioxide on the 
climate requires that we better understand natural climate 
variability. My written testimony summarized the evidence for 
and against the hypothesis that humans are playing a dominant 
role in global warming. I will make no attempts to summarize 
this evidence in my brief comments this morning. I will state 
that there are major uncertainties in many of the key 
observational data sets, particularly before 1980. There are 
also major uncertainties in climate models, particularly with 
regards to the treatment of clouds and the multi-decadal ocean 
oscillations.
    The prospect of increased frequency or severity of extreme 
weather in a warmer climate is potentially the most serious 
near term impact of climate change. A recent report from the 
inter-governmental panel on climate change found limited 
observational evidence for worsening of most type of extreme 
weather events. Attempts to determine the role of global 
warming and extreme weather events is complicated by the rarity 
of these events, and also by their dependence on natural 
weather and climate regimes that are simulated poorly by 
climate models. Given these uncertainties, there would seem to 
be plenty of scope for disagreement among scientists. 
Nevertheless, the consensus about dangerous anthropogenic 
climate change is portrayed as nearly total among climate 
scientists. Further, the consensus has been endorsed by all of 
the relevant national and international science academies and 
societies.
    I have been trying to understand how there can be such a 
strong consensus, given these uncertainties, excuse me. How to 
reason about uncertainties in the complex climate system is 
neither simple or obvious. Scientific debates involve 
controversies over the value and importance of particular 
classes of evidence, failure to account of indeterminacy and 
ignorance, as well as disagreement about the appropriate 
logical framework for assessing the evidence. For the past 
three years I have been working towards understanding the 
dynamics of uncertainty at the climate science policy 
interface. This research has led me to question whether these 
dynamics are operating in a manner that is healthy for either 
the science or the policy process.
    The climate community has worked for more than 20 years to 
establish a scientific consensus on anthropogenic climate 
change. The IPCC's consensus-building process played a useful 
role in the early synthesis of scientific knowledge on this 
topic. However, I have argued that the ongoing scientific 
consensus seeking process has had the unintended consequence of 
oversimplifying both the problem and its solutions, introducing 
biases into both the science and related decision-making 
processes.
    When uncertainty is not well characterized, and there is 
concern about unknown unknowns, there is increasing danger of 
getting the wrong answer, and optimizing for the wrong thing. I 
have argued in favor of abandoning the scientific consensus 
seeking approach in favor of open debate and discussion of a 
broad range of policy options on the issues surrounding climate 
change. There are frameworks for decision-making under deep 
uncertainty that accept uncertainty and dissent as key elements 
of the decision-making process. Rather than choosing an optimal 
policy based on a scientific consensus, decision-makers can 
design robust and flexible policy strategies that are more 
transparent and democratic, and avoid the hubris of pretending 
to know what will happen in the future. The politicization of 
the climate change issue presents dawning challenges to climate 
science and scientists.
    I would like to close with a reminder that uncertainty 
about the future climate is a two-edged sword. There are two 
situations to avoid. The first is acting on the basis of a 
highly competent statement about the future that turns out to 
be wrong, and the second is missing the possibility of an 
extreme catastrophic outcome. Avoiding both of these situations 
requires much deeper and better assessment of uncertainties and 
areas of ignorance, as well as creating a broader range of 
future scenarios than is currently provided by climate models.
    This concludes my testimony.

    [The prepared statement of Ms. Curry follows:]

    [GRAPHIC] [TIFF OMITTED] 


    Chairman Stewart. Thank you, Dr. Curry.
    Dr. Chameides, please, sir, for five minutes.

              TESTIMONY OF DR. WILLIAM CHAMEIDES,

                      DEAN AND PROFESSOR,

              NICHOLAS SCHOOL OF THE ENVIRONMENT,

                        DUKE UNIVERSITY

    Dr. Chameides. Thank you, Chairman Stewart, Ranking Member 
Bonamici, Chair of the Full Committee Smith, and other Members 
of the Subcommittee for the opportunity to testify today. My 
name is Bill Chameides. I am the dean of the Nicholas School of 
the Environment, and a member of the U.S. National Academy of 
Sciences. I am atmospheric scientist who has focused 
principally on the chemistry of the lower atmosphere, trying to 
understand the causes of environmental change, and identify 
pathways towards a more sustainable future.
    My main message today is the risks posed by human caused 
climate change are significant, and warrant timely action to 
minimize these risks. Yes, there are uncertainties, but these 
uncertainties do not justify inaction. What they do suggest is 
that our response should be a flexible one that allows for 
course corrections as new information and knowledge comes 
available. Much of what we know about the climate is the 
product of more than 100 years of research, founded on the most 
basic laws of science, and grounded by ever improving 
observations of the climate system. Thermometer measurements 
show that the Earth's average surface temperature has risen 
substantially over the past century. Much has been made of the 
so-called recent pause, or hiatus, in global warming, but we 
should keep the following context in mind. Present day 
temperatures are anomalously high. The last decade was the 
warmest on record. Nine of the 10 warmest years on record 
occurred since 2001, and 2010 and 2005 were the warmest and 
second warmest years on record, respectively.
    Significantly, the frequencies of extremely hot summer days 
has increased by more than a factor of 10 globally. The climate 
in the United States has become more variable and extreme. Over 
the past 50 years we have seen an increase in prolonged 
stretches of excessively high temperatures, more heavy 
downpours, and in some regions, more severe droughts. The 
preponderance of evidence suggests that most of the recent 
decadal scale warming can be attributed to fossil fuel burning 
and other human activities that release carbon dioxide and 
other heat trapping greenhouse gases into the atmosphere.
    I have noted that Dr. Curry, in her written testimony, 
states that a 2012 paper by Tonen Xiao suggests that the 
anthropogenic global warming trends might have been 
overestimated by a factor of two in the second half of the 20th 
century. Now, Dr. Curry has been a colleague of mine for many 
years. I respect her as a scientist. In fact, I was--I 
enthusiastically helped recruit her to her present position at 
Georgia Tech. But I find some of her statements to be 
problematic, and this is one of them. In the case of the Tonen 
Xiao paper, it is germane and important to also note that one 
of the implications of their result is that virtually all of 
the net warming over the past 100 years can be attributed to 
human activities.
    Human caused climate changes and impacts will continue for 
many decades, even centuries, however, the precise nature of 
these impacts cannot be predicted with great certainty. But we 
do know that the risks are considerable, and we haven't 
discussed at all the problem of ocean acidification from 
CO<INF>2</INF>, which is a virtual certainty.
    So how should we, as a Nation, respond? There is, of 
course, room for debate about what climate policies should be 
implemented, but uncertainty is not a reason for inaction. We, 
as individuals, and as a society, often act in the face of 
uncertainty. I, for example, cannot predict if, let alone when, 
there will be a fire in my house, but I pay for fire insurance. 
Similarly, in the face of uncertain but substantial risk from 
climate change, it is prudent to develop and implement a risk 
based flexible response to the climate change challenge. Such a 
response should have the following elements, reducing 
greenhouse gas emissions, mobilizing--investing in science, 
technology, and information systems, participating in 
international climate change efforts, and coordinating a 
national response.
    Let me highlight a few of these, and more details are in my 
written testimony. The nation will need to reduce greenhouse 
gas emissions. The magnitude and speed of emissions reductions 
depends, of course, on societal judgments about how much risk 
is acceptable, and what cost. However, given the long lifetime 
associated with infrastructure for energy production, and the 
potential for irreversible climate change, the most effective 
strategy is to begin ramping down emissions as soon as 
possible.
    Because we cannot predict the exact path climate change 
will take, we cannot prescribe a set of climate policies today 
that we know will be optimum for decades to come, and so we 
need an iterative risk management approach that systematically 
and continuously identifies risks, advances a portfolio of 
actions that reduce risks, and revises responses in light of 
new knowledge. And it is my impression that, on this issue, Dr. 
Curry and I are in agreement.
    America has choices to make about climate change, choices 
that we must face in the face of uncertainty, but also risks 
that are growing with every new ton of greenhouse gases we 
emit. We cannot avoid these choices. Bear in mind that making a 
choice to do nothing is, in fact, a choice. It is a choice that 
our children, and their children, and their children after 
them, will face increased risks from human induced climate 
change.
    Thank you very much.
    [The prepared statement of Mr. Chameides follows:]

    [GRAPHIC] [TIFF OMITTED] 

    Chairman Stewart. Dr. Chameides, thank you, sir.
    And now Dr. Lomborg.

           TESTIMONY OF DR. BJORN LOMBORG, PRESIDENT,

                   COPENHAGEN CONSENSUS CENTER

    Dr. Lomborg. Thank you very much. My name is Bjorn Lomborg. 
I work at the Copenhagen Consensus Center, and adjunct 
professor at the Copenhagen Business School. We are talking 
about policy relevant climate issues, so I would like to show a 
little bit of my testimony, in terms of saying what is actually 
relevant for the decisions that you will have to make. Yes, as 
I think all of us agree, global warming is definitely partly, 
and mostly man-made. It is a long term problem. I have tried to 
indicate what is the total cost of this, but we are probably 
talking about 1.4 percent of GDP over the next couple of 
centuries. Obviously that is an order of magnitude impact. So 
it indicates it is not the end of the world, as it is sometimes 
being portrayed, but it is certainly not nothing either, so let 
us try and get this right.
    We also need to recognize that the last 20 years of what we 
have tried to do has managed to do almost nothing. What you see 
here is the CO<INF>2</INF> emissions from 1950, and out until 
2035 from the International Energy Agency. You see a little bit 
of crosses around 2010, which was what we promised with Kyoto. 
We managed virtually nothing. We have spent 20 years, and 
managed to do virtually nothing. And we need to recognize that 
the current approach, that focuses very much on saying, it is 
about wind turbines and solar panels, yes, they are going to 
help, but not very much. By--right now, about 0.8 percent of 
all energy comes from modern green agency, and in 2035, with 
very optimistic scenarios, it is going to be 3.2 percent. So we 
are talking about a very small part of the solution. If we are 
going to fix climate change, we will need game changers.
    We also need to recognize, as several Members pointed out, 
cutting CO<INF>2</INF> is not free. There is a strong 
correlation between how much more economic growth we have and 
how much more CO<INF>2</INF> you put out. So, again, we have to 
recognize we are not polluting the atmosphere with CO<INF>2</INF> 
just simply to annoy the environmentalists. We are doing it 
simply because it is what powers everything we like. And so, 
unless we find technologies that allow us to continue economic 
growth without the CO<INF>2</INF> emissions, I think we are 
going to find it very hard to get most nations on board to 
reduce their carbon emissions.
    We also need to recognize that, whatever we do, it is only 
going to have long term impact. No matter what we do, it is 
really only going to impact the temperature development in the 
second half of the century. And, as some of the Members also 
pointed out, we need to get China and the rest of the 
developing world on board. We can do a lot of good, certainly. 
I come from the European Union. We feel incredibly virtuous, 
but we have done virtually nothing. Let me just show you one 
graph, which I think, in many ways, shows you--this is for 
Britain, but this is true also for the European Union. If you 
will look at the blue curve, you see how much Britain has 
actually cut its carbon emissions, and they are very, very 
proud of this too. But if you look at the red curve, it 
includes how much they also import, minus what they export, of 
their carbon emissions. And, of course, what they have 
essentially done, and what a lot of us have done, is we have 
simply exported a lot of our stuff to China. So we get China to 
emit all the CO<INF>2</INF> for us, we feel virtuous, but it 
doesn't actually help the planet.
    So, again, we need to find a way that actually works not 
just to make us feel good, but something that will actually end 
up doing good. So, fundamentally, if I have to summarize why it 
hasn't worked so far, well, we have done Kyoto style cuts, 
which actually cost quite a bit, they do very little good, and 
we need to recognize that right now, and certainly in the next 
10 or 20 years, green energy is not really ready to take over 
in any major way. We need to recognize that currently we are 
just spending lots of money doing fairly little good.
    This is--I am--I apologize, this is the most complicated 
graph, but it shows you how much different--of the main 
countries are paying in implicit CO<INF>2</INF> costs per ton 
of CO<INF>2</INF>. Germany is paying almost $150 per ton. The 
United States is probably paying a little less than $50 per 
ton. Compare this to the fact that the best and the largest 
meta-study of what is the damage cost for an extra ton of 
CO<INF>2</INF>, I estimate it is probably around $5 per ton. So 
you are--you guys are paying perhaps 10 times too much, Germany 
is paying perhaps 30 times too much. South Korea, obviously, is 
just paying through the roof, and there are a lot more 
expensive solutions. We need to find cheaper ways to tackle 
global warming.
    And that is why I think we need to--if I--in summary, we 
need to recognize this cannot be about trying to make fossil 
fuels so expensive nobody wants them. That is never going to 
work politically, and it is bad economics. Instead, what we do 
need to do is to focus on making green energy so cheap that 
everyone eventually will want them. And, of course, that is 
especially China and India. That is going to happen through 
innovation. This will take time, and we would all wish this not 
to be the case, but we have got to face up to the fact that 
that is the only way we are really going to cut carbon 
emissions.
    We need to recognize we are spending very little on 
research and development right now. We are spending a lot of 
money on inefficient cutting of carbon emissions. Why don't we 
spend more on innovation, and less on cutting carbon emissions? 
Ultimately, that will end up doing a lot more good.
    Let me just--and I don't mean to beat advice or anything, 
but if you looked at what President Obama said in the--in his 
State of the Union, he actually proposed an energy security 
trust. And if you--and it was very sketchy what exactly was 
going to come out of that, but if--the thrust of that was to 
say, let us take a little money and spend it on research and 
development to make green energy cheaper for the future, that 
way we will cut carbon emissions much cheaper by making it 
cheap for everyone, also the Chinese and the Indians.
    Thank you very much.
    [The prepared statement of Mr. Lomborg follows:]

    [GRAPHIC] [TIFF OMITTED] 

    Chairman Stewart. Thank you, to all of you, for being 
available to us in your questioning today. The Committee rules 
limit questioning to five minutes, and alternating between 
Republican and Democratic Members of the Subcommittee. And the 
Chair now recognizes himself for five minutes to begin 
questioning.
    Again, in a sincere way, thank you for a very 
intellectual--and I appreciate the tone of your testimony 
today. I do think the nuts and bolts of this issue are fairly 
straightforward, and several of you indicated that it is risk 
management, it is risk analysis. What are the actual risks, 
what are the actual costs, and what is the most effective way 
to getting and arriving at a desirable outcome, which all of us 
want to do? I don't know anyone who doesn't want to arrive at 
the same outcome on this. Of course, analyzing the risk is 
where this has become so politicized, I am afraid.
    And then I think something that I appreciate with this 
panel here, once the risk is determined, trying to determine 
the actual cost to it, and what that means. And as I indicated 
in my opening statement, this can't be borne by a small 
percentage of people. The cost of this will be borne by all of 
us, and in some cases by people who can least afford it. And I 
am not only talking about those of us here in the United 
States, but around the world, and people who will be, in a very 
real way, denied a standard of living that allows them for the 
minimal standards of power, and, in many cases, the things 
tangent to that. For example, health care.
    And, Dr. Chameides, I appreciated your analogy with the 
fire insurance. And, of course, all of us understand that, but 
I wonder if you have a scenario where your house is worth 
$100,000, but it costs you $200,000 to buy an insurance policy 
for that, and I won't ask you if that is a good decision, 
because of course it is not, and I think that is where many of 
us are wondering, what is the cost of that insurance, then? And 
you list several suggestions in your testimony of things that 
we could do to substantially reducing greenhouse gas emissions, 
which is incredibly expensive, and, frankly, changes our whole 
economy--mobilizing new--now for adaptation. And I won't read 
your entire list, but, I mean, have you seen any analysis that 
would give you a figure for that of economic input in dollars?
    Dr. Chameides. Certainly. There have been many, many that 
had indicated--I mean, it depends, again, on how rapidly you 
want to decrease, but most analyses have indicated that the 
price to our economy for decreasing emissions at a substantial 
rate over the next decade or two are fairly modest, on the 
order of about one percent or less of GDP.
    I think the important thing to bear in mind is----
    Chairman Stewart. Could I just interject?
    Dr. Chameides. Sure.
    Chairman Stewart. I mean, to some people one percent may be 
modest, but it is a meaningful amount of money. We are talking 
trillions of dollars there. Again--yes?
    Dr. Chameides. Yeah, it is true, but it is one percent, 
okay? Without making a value judgment. But I think the 
important thing to bear in mind is--I mean, and, again, we can 
argue about how rapidly we should cut, and how much we should 
cut, but we are talking about a process of cutting emissions 
that will need to occur over many, many decades. We don't 
necessarily need to make major cuts now. I think it is 
important that we get started.
    One of the analogies that I would make--sometimes there has 
been discussion about this or that has virtually no impact on 
the temperature in 2050. I would like to make the analogy of, 
you know, at some point at the end of this hearing, I am going 
to head over to the Metro, and it is going to be--let us say 
1,000 steps. And I have got to make that first step, and that 
first step is really important. But someone could say, don't 
take that first step. It doesn't get you anywhere. I think we 
have to recognize that that first step in setting us down the 
road will be very, very important. And it could be very modest. 
I think we could decide on that.
    Chairman Stewart. Okay. If I could shift gears for just a 
minute, and I will just allow any on the panel to address this, 
and that is--it is interesting to me that the--if you take the 
top 20 primary modeling of this, and yet we are about to drop 
out of the lowest level of that modeling, with this pausing in 
temperature rise, and none of them predicted that. And, I mean, 
is there any idea--might that continue for five years, for ten 
years, for 20 or 30 years? Do we have any idea? Dr. Curry?
    Dr. Curry. I can address that. There are some hypotheses 
that this could go out for another 20 years or so. Associated--
we have recently seen a shift to the cool phase of the Pacific 
Decadal Oscillation, which means we will see more La Ninas, 
which have a cooling effect. And this could keep us in a--
basically a flat period for several more decades. So we don't 
quite know--we are also--people are projecting that the sun 
will be acting in a direction that is towards cooling, relative 
to what we saw in the latter half of the 20th century.
    So there are signals that we could see cooling for the next 
few--or steady temperatures for the next few decades.
    Chairman Stewart. Okay.
    Dr. Chameides. Take a couple of seconds----
    Chairman Stewart. Yes.
    Dr. Chameides. --the time has expired. I think we don't 
know, and there is a chance that it may continue. And, in fact, 
there is equal chance, and perhaps less--more of a chance that 
it will increase again at a rapid rate. I think the important 
thing to do is--if you look at the graph of model predicted 
temperatures over--and observe, you will find many instances in 
the record over the 20th century where the model over-predicted 
the warming for a period of time, like it is now. And what 
happens is eventually the atmosphere catches up, and, actually, 
at some points the model under-predicts the warming. So the 
fact that we are over-predicting the warming right now is not 
unprecedented, although it is troubling for many of us, yes.
    Chairman Stewart. Okay. Thank you. I will give the time 
over to the gentlewoman from Oregon.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you, panel, for your testimony.
    Dr. Chameides, in your testimony you state that most of the 
recent decadal scale warming can be attributed to fossil fuel 
burning and other human activities that release carbon dioxide 
and other heat trapping greenhouse gases into the environment. 
Will you please expand on what the other human activities are?
    Dr. Chameides. Certainly. A good deal of it is biomass 
burning, deforestation, for example. There are also greenhouse 
gases that other than carbon dioxide. For example, diesel 
burning, and other solid fuels that give rise to black carbon, 
or soot emissions. Methane emissions, some from agriculture, 
some from landfills and so forth are also quite important, for 
example. Fertilizers tend to emit nitrous oxide, which is also 
a very effective greenhouse gas. And then there are 
fluorocarbons that are used in the chemical industry that also 
contribute to global warming.
    Ms. Bonamici. Thank you very much. And you also state in 
your testimony that uncertainty is not a reason for inaction, 
and suggest taking the risk based and flexible response to the 
climate change challenge. And I appreciate the analogy, like 
buying insurance for your house, and the Chairman also talked 
about that, you know, considering what if the insurance costs 
more than the house? I think I have to submit that it is easier 
to replace a house than a planet, if we have the kind of damage 
that could come from climate change. What are the main risks to 
humans if we don't decrease our emissions? And are there 
increased risks if delay action? And, in the same vein, you 
talked about the greater risks from further climate change. Are 
the risks different as greenhouse gas emissions increase, or 
are they the same risks, only amplified?
    Dr. Chameides. I would say that, as far as we know, we have 
a long list of risks. Some of the impacts that we see 
potentially happening now, and some that we think will come. 
And I don't necessarily think that qualitatively that will 
change, although they might become more severe. And, of course, 
those risks relate to loss of life and property due to extreme 
weather, droughts. Sea level rise, of course, is a large one. 
We are seeing what we believe is a decimation of forests in the 
west from pine bark beetle infestation, which seems to be in 
part due to the fact that temperatures are so high, and the 
climate is so dry, and a variety of other things.
    I think what is very, very important to bear in mind, in 
terms of making a decision about the future and the risks, is 
that the impact of emissions today won't be fully felt for a 
number of decades. It is sort of the flip side of what Dr. 
Lomborg was saying. And so if we say, well, let us delay and 
see what happens in 20 years, basically not only then have we 
locked in what is happened in the intervening 20 years, but we 
have now locked in to a future.
    And so the issue of the risks that we face is the fact that 
what we do today will have a major impact in the future, and do 
we want to take that chance, or do we want to begin to do 
something to mitigate that?
    Ms. Bonamici. Thank you. Dr. Lomborg, you talked about 
investing in--heavily in research and development into green 
technologies. In times of budget constraints, oftentimes those 
investments are targeted for cuts, unfortunately. And we are 
committed, I think, in the United States to investing in 
renewable technology and renewable energy. So could you talk a 
little bit about what green technologies you would propose, 
what are the benefits, other than, of course, for the industry 
itself, of investing in green technology?
    Dr. Lomborg. Absolutely, and thank you. The important part 
is to recognize that investing in research and development, 
investing in smart minds--come up with new idea is much, much 
cheaper than the support that we give to existing inefficient 
technologies, like subsidizing solar panels or wind turbines 
right now, so we could actually make money and invest a lot 
more in research and development. My point is simply to say, we 
don't know which technologies--and I think we would all agree 
we don't know what technology's is going to power the middle of 
the century. But what we need to do, and what America has been 
so amazing at doing, is to show the way for the rest of the 
world, coming up with great innovations.
    I love--if you know Craig Venter, the guy who sequenced the 
human genome, he is working on making a bacteria that will 
essentially be producing diesel. I don't know if it is 
possible--it is probably technologically possible, but we also 
know that it is not economically feasible right now, but 
imagine if we could do it? And those are the kinds of ideas--
there are thousands, literally thousands, of ideas out there. 
They cost very little to support each one of those, and we 
really just need one, or a few, of those technologies to come 
through, and they will then make it possible for everyone else, 
the Chinese and the Indians, to cut their carbon emissions 
dramatically.
    So I agree with Dr. Chameides. Obviously, if we don't do 
anything for 20 years, we would just have wasted 20 years. But 
if we actually make sure that the future will have viable 
alternatives, we could see a dramatic reduction in CO<INF>2</INF> 
in just a short while, once we get the economics right.
    Ms. Bonamici. I see my time has expired. I yield back. 
Thank you, Mr. Chairman.
    Chairman Stewart. Thank you.
    Chairman Smith.
    Chairman Smith. Thank you, Mr. Chairman. It is probably an 
indication of the expertise of this panel that almost all my 
questions have already been answered, but I do want to make a 
couple comments, and maybe come at some of these issues from 
another way.
    Dr. Lomborg, in your last answer, I think you answered one 
of my questions, which was--you are not suggesting doing that--
you are not suggesting delaying. In fact, just the opposite. It 
is a very active proposal that will actually, I believe, not 
only benefit America economically, but will actually lead to a 
greater reduction in carbon dioxide, or other greenhouse gases, 
and actually lead to a cleaner environment. And I just have a 
hard time understanding why that doesn't hold more attraction, 
rather than plowing ahead with policies that we know is going 
to hurt American economically, and obviously not produce the 
results that many of us would like, and we could probably agree 
upon.
    Let me ask something else. The United States, as I 
mentioned in my opening statement, has reduced carbon dioxide 
emissions 12 percent of the last seven years. The reset of the 
world has increased carbon dioxide emissions by 15 percent. 
That is as good of a record as, I think, any industrialized 
country in the world has, so we can be grateful for what we 
have been doing in the United States. And I don't think we need 
to keep punishing our citizens economically for doing the right 
thing. But you mentioned a while ago that we are paying 10 
times more than we should for I guess energy, but I wanted to 
ask you to expand a little bit on that. I know you mentioned 
Germany 30 times or greater, but why are we paying 10 times too 
much, and how--what is the answer to not doing that?
    Dr. Lomborg. Thank you very much. Yes, fundamentally we 
have a split in the climate conversation between feeling good 
and doing good. The feeling good part is where we put up a 
solar panel that is not yet effective, or a wind turbine that 
is not yet effective, but telling ourselves, but we are at 
least cutting carbon emissions. Which is true, but for every 
ton we cut, we pay perhaps $50----
    Chairman Smith. I see
    Dr. Lomborg. --when the benefit of that ton is only about 
$5. Now, again, obviously, you can quibble about the exact 
numbers, but it indicates that we are paying a large sum of 
money to do a little good.
    And I would like to get back to your point of--on the 
fracking. Fracking is a technology that we invested in from 
the, what, late '70s in the United States, and we are only just 
seeing the benefits now. Essentially the United States probably 
reduced about eight percent just from fracking. So, to put it 
very bluntly, with fracking you probably cut about 400 million 
tons every year of CO<INF>2</INF>, and you are getting paid for 
it. You are actually making--compared to prices before, you are 
probably making about $125 billion a year for the American----
    Chairman Smith. We ought to be encouraging that, rather 
than trying to----
    Dr. Lomborg. So my----
    Chairman Smith. --deter it, yeah.
    Dr. Lomborg. The simple point is it is a lot easier to cut 
carbon emissions----
    Chairman Smith. Okay.
    Dr. Lomborg. --and make people money than it is----
    Chairman Smith. Right.
    Dr. Lomborg. --to tell them, could you please cut carbon 
emissions, and it will cost them a lot of money. And that is 
what innovation can do.
    Chairman Smith. Exactly. Thank you, Dr. Lomborg. Let me 
address my next question to all panelists, and, Dr. Curry, 
start with you. And this is the connection between extreme 
weather and climate change.
    Last year the Inter-governmental Panel on Climate Change, 
IPCC, found that there is a high agreement that long term 
trends in weather disasters ``have not been attributed to 
climate change. Droughts have become less frequent, less 
intense, were shorter in regions like central North America, 
and the absence of extreme weather trends caused by climate 
change is also true for floods, tornadoes, and tropical 
storms.'' Let me just ask you all if you agree with that 
conclusion. That was a small part of a larger report by the 
Panel on Climate Change. Dr. Curry?
    Dr. Curry. I do agree with that statement. The extreme 
events have been--seemed very extreme the last decade, and they 
were certainly more extreme than we saw in the 1980s. But if 
you go back to the 1950s, and if you go back to the 1930s, you 
saw similar patterns. You know, droughts in the southwest, 
elevated hurricane activity, et cetera.
    Chairman Smith. Thank you. Dr. Chameides, do you agree with 
the IPCC?
    Dr. Chameides. Without saying I agree or disagree, let me 
just quote to you something that comes from our own U.S. 
National Climate Assessment. This just----
    Chairman Smith. Is it possible you might tell me whether 
you agree or disagree?
    Dr. Chameides. I have to see the statement in more detail. 
It is not--I am not--I just don't know. I can't comment on it.
    Chairman Smith. Okay.
    Dr. Chameides. Well, what it says is that over the past 50 
years, for the United States, we have seen an increase in 
prolonged stretches of excessively high temperatures, more 
heavy downpours, and, in some regions, more severe drought.
    Chairman Smith. Right.
    Dr. Chameides. So there are some aspects that we are seeing 
changes.
    Chairman Smith. Yeah.
    Dr. Chameides. This is the U.S.----
    Chairman Smith. I think the point the report is making is 
to--if you look at this over a number of years, and sort of put 
it in context that we are seeing that extreme weather occurs 
many decades ago, and is going to continue to occur, and there 
is not necessarily any correlation between that and, say, 
carbon dioxide emissions.
    But, Dr. Lomborg, do you have an opinion on that?
    Dr. Lomborg. I think the fundamental point is that there 
are some things that are actually getting more extreme, but 
there is also a lot of hype, I would agree. But I think the 
real point is to recognize trying to regulate extreme weather 
through carbon cuts is an extremely inefficient way to do it, 
certainly in the next half century. Now, I think we all agree 
that eventually we need to fix this, but I would----
    Chairman Smith. Um-hum.
    Dr. Lomborg. --surmise that, to the extent that you worry 
about people being hit by hurricanes, people being hit by heat 
waves, there are much more direct, and much cheaper, and much 
more effective ways to help them in the short and medium, and 
even rather long term.
    Chairman Smith. And I agree with you. I think technology 
developments need to come first, and that will yield a better 
result, and a more cost efficient result as well.
    Thank you all for your comments. Thank you, Mr. Chairman.
    Chairman Stewart. Thank you, Chairman Smith.
    I now turn the time over to colleague from Maryland, Ms. 
Edwards.
    Ms. Edwards. Thank you, Mr. Chairman, and Ranking Member 
Bonamici.
    I had hoped that, in today's hearing, we would be able to 
identify the remaining uncertainties about climate science, and 
understand our ability to mitigate them, and to inform policy 
decisions that protect the public and our economy, and I am not 
totally sure I have heard that quite yet. And, in fact, it has 
been quite disturbing, because what I hear from our witnesses 
is that they agree that climate change is happening, that the 
globe is warming. They agree that it is some combination of 
natural occurrence and human activity. And, in fact, all of you 
are members of various scientific and other societies who 
conclude that a vast majority what is happening right now is 
caused by human activity.
    And yet, here we are, with one of our witnesses saying, 
well, you know, let us just wait and invest down the line to 
get cheaper technology, green technology, that helps us 
mitigate some of our concerns, and that is really disturbing to 
me.
    Dr. Chameides, in your testimony, you say that greenhouse 
gases that we emit now are going to linger in the atmosphere 
for generations, impacting our great-grandchildren, just as we 
are experiencing the impacts of fossil fuels burned over the 
last century. And so, considering the position that some are 
taking, that action now to address climate change is way too 
costly, and your point about the lingering consequences, isn't 
the cost of inaction now great, or greater, than the cost of 
action?
    Dr. Chameides. Thank you. I--my testimony indicates that it 
is my strong opinion that a prudent course of action would 
begin to act now. I don't think we can afford to wait. As I 
said, I think that the issues of how fast, and at what cost, 
are issues that we should discuss as a society. But I think it 
is imprudent to decide that we will simply wait and see what 
happens.
    One of the things I said in my testimony with regard to 
carbon dioxide that I think is useful to bear in mind as a 
measure, some of the carbon dioxide that we emitted, we 
emitted, in the first Model T car is in the atmosphere today. 
And some of the carbon dioxide that we are going to emit when 
we drive home or whatever tonight is going to be in the 
atmosphere of our great-great-grandchildren. So there is a 
decision we have to make about how much of that legacy do we 
want to leave for our future generations? And every day that we 
delay means more of our legacy will be that carbon dioxide.
    Ms. Edwards. Thank you. One of the challenges we have--and, 
Dr. Lomborg, I agree that we need to make investments in green 
technology. In fact, I think many of the Members on my side of 
the aisle have voted repeatedly to make those investments in 
green technology, and in enhancing research and development 
activities, and we have been stopped in our tracks over and 
over again by folks who say, no, we don't want to think about 
that at all, we don't want to make those kind of investments, 
when we know that that would be good for the future at the same 
time that we are trying to reduce CO<INF>2</INF> emissions.
    But I am interested in your testimony because you say--and 
it sounds that our Chairman kind of agreed with the investments 
in green technology over time, but you are calling for $40 
billion of investment from the United States Government in 
green technology. And I am going to tell you, you go lobby that 
side of the aisle and see if you can find $40 billion for that 
kind of investment, because I rather doubt that that can 
happen, and especially in this constrained environment. And so 
wouldn't you agree that there has to be some sort of balance 
that says we have to both reduce our current emissions--the 
United States has to take a lead on doing that, try to 
encourage as much as possible China and India. We know what 
those contributions are, but we have a little bit of skin in 
that game, and we have to invest in green technology. But to 
think that we are going to somehow come up with a magic $40 
billion to do that, I think, is--well, it is foolhardy.
    Dr. Lomborg. And thank you very much for those comments. My 
point is simply to say that those are the technologies that 
will power the future. What we have seen right now--and let us 
just remember the last 20 years. We have been making these 
kinds of statements, especially in Europe, for a very long 
time. We want to cut carbon emissions, we have given subsidies 
to a lot of technologies, and we have managed to cut very, very 
little. And to the extent that we have, we have just exported a 
lot of our emissions to China.
    So my concern is really that, by continuing to say, let us 
cut carbon emissions, we actually just end up doing very little 
for a decade or two. I would hate to see that happen, whereas, 
if we invest in research and development, we could actually get 
possibly everybody on board. Just to give you a sense of order 
and magnitude, you are right now spending about $17 billion on 
biofuel subsidies. That would probably be a good thing to cut. 
I am sure I am going to offend somebody here. You are certainly 
also--I would like to just look into those numbers, I can't 
quite remember them, but you are at least spending $20 billion 
on subsidies to solar panels. If you add that up, you would 
have $37 billion I----
    Ms. Edwards. Well, we need to cut--see, my time is expired, 
but we must cut CO<INF>2</INF> emissions. That is part of our 
responsibility. It is the responsibility to challenge our 
international partners to do that, and to make the investments 
in green technology and research and development that I would 
agree that we should.
    And my time is expired. Thank you.
    Chairman Stewart. Thank you, Ms. Edwards.
    Mr. Neugebauer?
    Mr. Neugebauer. Well, thank you, Mr. Chairman, and thank 
you for holding this important hearing, and thank our panelists 
for being here.
    You know, I am just an old land developer from Lubbock, 
Texas, and so I am not a scientist, but what I do know a little 
bit about is markets. And I think, Dr. Lomborg, you mentioned 
that we ought to shift some of our resources into the research 
side, and what we have been doing is subsidizing alternatives 
that we thought would be a part of the solution. And, as you 
mentioned, some of those numbers are big.
    And so if we are going to do a cost benefit analysis of 
these things, doesn't it distort our ability to determine both 
the cost and the benefit if the government is distorting the 
marketplace? And, because many of the alternatives that are 
being offered out there are not commercially viable. And so 
what happens to things that aren't commercially viable, if--
unless the government determines that it is going to subsidize 
it, they go away, and so those become temporary solutions. So 
what is your thoughts for the government to step back? I mean, 
what we have seen from--particularly from this administration 
is that you have gone out and given huge loans, and grants, and 
subsidies to commercial entities, but it turned out that the 
government thought that was a great idea, the customers didn't 
agree with that.
    So is your--is it your testimony that we should basically 
get the government out of the subsidy business?
    Dr. Lomborg. No, it is that we should be much smarter about 
how we make the argument. Let us remember, if global warming is 
a problem, and I am arguing that, with the best meta-studies, a 
ton of CO<INF>2</INF> emitted about now causes about $5 of 
aggregate damage, we need to somehow reflect that. What we need 
to recognize is that right now we are possibly subsidizing 
green energy sources to the tune of $50 per ton of CO<INF>2</INF> 
avoided, so we are paying too much to avoid too little damage.
    But that doesn't alleviate us from actually having to do 
something to avoid those tons that the United States is 
responsible for. But, of course, we would also like to see all 
the tongs that the Chinese are responsible for, and the Indians 
are responsible for. And, as the Chairman rightly mentioned, I 
think the Chinese and Indians are more concerned about just 
getting their kids an education, and food on their table, and a 
lot of other issues. So it lies to our responsibility to make 
sure that we invest smartly so that we can avoid that extra 
damage down the line.
    If you invest in research and development--and there will 
be an under investment in research and development in the 
private market, simply because if you--imagine Mitchell, he did 
the first fracking back in '78. If nobody had supported him, 
why on earth would he have done it? Because had he found out 
how to frack spending 30 years, he would have not been able to 
patent that. He would probably not have been able to recoup all 
those benefits. There are huge social benefits. That is why we 
invest in medical sciences, to--for people to come up with 
great new cures. And, likewise, we should be investing in long 
term innovation for technology.
    So my argument is to say stop subsidizing as much, and 
start investing a lot more in research and development.
    Mr. Neugebauer. Dr. Curry, do you concur with that?
    Dr. Curry. Well, yeah. I didn't hear much that I would 
disagree with.
    Mr. Neugebauer. Okay. And, one of the things that you bring 
up, and it is a concern I have, is that if the rest of the 
world--I mean, we almost make it sound like it is--that the 
United States is the number one contributor to greenhouse gases 
in the world, and that is, from my reading, is not the case. Is 
that--anybody disagree with that? So the question is, if the 
rest of the world isn't going to either have the resources to 
make these investments, or decides not to buy into it, and what 
we have seen is many of the other countries have not bought 
into it, then doesn't that diminish our ability to really have 
impactful changes, if, in fact, we are affecting the climate? 
Yeah.
    Dr. Lomborg. Sorry. Just very briefly, if you do a cost 
benefit analysis, the current approach is probably not a good 
way to go. But if you invest in research and development, the 
benefits could be 10, or even more, the amount of dollars that 
you put in. So it would both benefit the United States, because 
you would have better technology for the future, and you would 
also help the rest of the world. I would surmise that might be 
a good deal, even just for the United States. But, of course, 
it would be ideal if we could also get China and India on 
board.
    Chairman Stewart. Thank you again. It looks like our last 
questioner today is Mr. Weber.
    Mr. Weber. Dr. Lomborg, I think--and I came in late, and 
didn't get to hear all of you all's testimony, I apologize, so 
I am--I will go with what I have got. I believe you testified 
you recommend $40 billion in research from the United States, 
and my colleague down on the other side of the aisle said, you 
know, go lobby this side of the aisle. How much luck have you 
had lobbying China?
    Dr. Lomborg. We asked some of the world's top economists 
what are the smartest ways to deal with global warming, and 
what they suggested was we should be spending 0.2 percent----
    Mr. Weber. Are you lobbying China, and Russia----
    Dr. Lomborg. Yes.
    Mr. Weber. --and India?
    Dr. Lomborg. Yes, but it is----
    Mr. Weber. Okay.
    Dr. Lomborg. --also important----
    Mr. Weber. How much money are they investing?
    Dr. Lomborg. Well, they are investing some money, but, 
honestly, I don't know what----
    Mr. Weber. Somewhere south of 40 billion, I suspect?
    Dr. Lomborg. Yeah. Let us also say I am suggesting it is a 
percentage of----
    Mr. Weber. Okay.
    Dr. Lomborg. --GDP, so they would be investing a lot less.
    Mr. Weber. And this is a question for all three of you. Are 
you all aware of the amount of energy required, alternating 
current, to run an electrical grid, for example, the size of 
the one in Texas, which is 85 percent of the state? Are you all 
aware of how much energy is required, and how much of that is 
alternating current, how much direct current, which would be 
solar panels, produces for that grid? Dr.--is it Chameides, 
Chameides? Are you aware of that?
    Dr. Chameides. I don't know the numbers.
    Mr. Weber. How about you, Dr. Curry?
    Dr. Curry. I don't know the numbers, but I am doing 
research related to wind energy generation----
    Mr. Weber. Okay.
    Dr. Curry. --and----
    Mr. Weber. All right. Well, I own an air conditioning 
company, and let me tell you, it is a huge amount of power 
required to power a compressor to enable us to sit here today 
without the windows open, with the lights on, and also to do 
things like refrigerate your food. Just minor details.
    Our quality of life is sustained by the energy that America 
produces. The things that make America great are the things 
that America makes. We have the most stable energy source in 
the world, and that is not by accident. That is by 
entrepreneurs getting out and developing their industry, and 
risking their capital. And I will get off that soapbox for a 
minute, and I will ask you all questions.
    So--there is advocacy going on that the United States needs 
to cut their CO<INF>2</INF> emissions, while the rest of the 
world, admittedly China, Mexico, India, and some of the other 
countries will not. All that does is puts us at an economic 
competitive disadvantage, and, in fact, would enable them to 
perhaps become the world leader in the market economy. Our 
quality of life would go down. We would export a lot of jobs 
overseas. Without really knowing that global warming is 
affecting us, are any of you able to adequately measure the 
amount of a tree's ability to assimilate CO<INF>2</INF> and 
carbon dioxide, and to reproduce oxygen? Do we know that? Is 
that factored into you all's thought process? Do we need to 
plant more trees? Dr. Curry?
    Dr. Curry. That is certainly a, you know, a good thing. It 
would have many beneficial impacts on the environment----
    Mr. Weber. Okay.
    Dr. Curry. --but there are ways of natural sequestration of 
CO<INF>2</INF>.
    Dr. Chameides. There are a variety of ways of using land, 
farm land in particular, and forests, to what we call offset 
the emissions from the energy grid, and allowing those offsets 
into a system would greatly reduce the costs.
    Mr. Weber. Okay. And let me--my time is running short here. 
Dr. Chameides, I think you made the comment that the CO<INF>2</INF> 
emissions from Model As and Model Ts are in still in the 
atmosphere, and I am curious how you have been able to identify 
those, because I can't tell them apart from the '56 Chevy I 
drove in high school.
    Dr. Chameides. I--they are playing ragtime music. No, I am 
sorry, I apologize.
    Mr. Weber. That is all right.
    Dr. Chameides. So we--first of all, we know that the extra 
carbon dioxide in the atmosphere is largely coming from burning 
of fossil fuels from isotopic data. And from that isotopic data 
as well, we can estimate fairly well, accurately, how long a 
carbon dioxide molecule ultimately stays in the atmosphere, in 
a sense, after it has been emitted. And from those two things 
we can estimate how much of the carbon dioxide that was 
emitted, say, in 1920, or '15, or whenever it was----
    Mr. Weber. Okay.
    Dr. Chameides. --is still in the atmosphere today.
    Mr. Weber. Okay. And then, lastly, if we are wrong on 
global warming, and if global cooling results in the next--
does--that become the discussion in 40, or 50, or 75 years, how 
does the United States recover from losing its market edge in 
the world, from a policy standpoint? How do we recover from 
that mistake? Dr. Curry?
    Dr. Curry. Well, this is why I suggest we need to consider 
a broad range of possible future climate scenarios on time 
scales, you know, out to 3, 4, 5 decades, versus, you know, 
this century. What may happen, you know, on the near term 
decadal time scales may going in a different direction than the 
longer term change, and I think those are the kinds of 
scenarios that we need to consider if our policies are going to 
be robust.
    Dr. Chameides. I guess I--with all due respect, I would 
question the premise. I think we can intelligently come up with 
a large portfolio of options and policy responses, including 
investments in research and other types of activities that will 
not substantially change our market position.
    With regard to the China and other countries, I think, you 
know, we need to recognize that it is a double-edged sword. We 
are in a bit of a bind, because their emissions threaten our 
well-being. And so it behooves us to not only worry about what 
we are doing, but to engage with those countries to get them to 
get--be serious about their emissions. And China is a strange 
animal, but they have actually built a lot of coal fired power 
plants, but they have also invested in a lot of renewable 
energy. I think about 25 percent of their rebuilds----
    Mr. Weber. Okay.
    Dr. Chameides. --is----
    Mr. Weber. And, I am sorry, I am out of time, but, Dr. 
Lomborg, Mr. Chairman, if I may very quickly? How do we 
recover?
    Dr. Lomborg. Well, I think your point is well taken that 
you are not going to see dramatic reductions if it actually 
starts impacting people's life quality. And I think that is 
really the argument for why we haven't done anything in the----
    Mr. Weber. Thank you.
    Dr. Lomborg. --last 20 years. So we need to find smarter 
ways that is actually going to bind everyone together, and it 
is going to be cheaper.
    Mr. Weber. Thank you. I yield back the time I don't have.
    Chairman Stewart. Yes, Mr. Weber. And I misspoke, you are 
not the last questioner today.
    Mr. Rohrabacher?
    Mr. Rohrabacher. Thank you very much. And I did hear your 
testimony, and I had to run off to the Foreign Affairs 
Committee to see that we don't borrow money from China, in 
order to give money to China, because of predictions of global 
warming.
    Now, I can remember at least 10 different occasions in my 
memory of scientists who have said, case closed. Remember that 
expression? Case closed, there is global warming. And I 
remember my colleagues picking up on that, on the other side, 
case closed. And you still hear that ringing, that--well, this 
is--what--the change in the climate is due to man-made 
activity, and this was done in order to suppress debate. Let me 
just say that I have in 24 years in Congress, and I was a 
journalist and a writer before that, and spent some time in the 
White House, I have never heard such an effort go on among 
academic people to cut off debate on an issue than this one. I 
have never seen it before.
    Let me ask you some specific questions. You have some 
experts here now. It appears to me that the baseline for 
deciding how much warming is taking place is around the 1850s. 
And the baseline that we are talking about, in the 1850s, 
happens to be at the very tail end of a couple hundred years of 
what is recognized cooling. Have we come back to the point yet 
that there was a natural thing before that cooling started. Is 
the temperature of the Earth yet back to what it was before it 
went through the mini-Ice Age? Are we back to that temperature 
yet before the mini-Ice Age?
    Dr. Curry. Well, there is debate about what the, you know, 
what the global temperature was during, say, the medieval warm 
period, and it is very hard to sample and infer all that. So 
that is an area of active debate.
    Mr. Rohrabacher. Do we have--anybody else have any 
suggestions on that?
    Dr. Chameides. A wide number of studies, in a variety of 
different ways, indicate that the present day temperature is 
warmer than it has been probably for at least 1,000 years or 
longer. Let me just give you one----
    Mr. Rohrabacher. Well--but, wait--but we don't know the----
    Dr. Chameides. One----
    Mr. Rohrabacher. One question. We don't know that--even if 
it is hotter than it was before the decrease in temperature, 
when we are claiming that this is some abnormal----
    Dr. Chameides. It is higher----
    Mr. Rohrabacher. --change?
    Dr. Chameides. --than--it is higher than temperatures that 
we have seen for 1,000 years, so it goes----
    Mr. Rohrabacher. Okay.
    Dr. Chameides. Okay.
    Mr. Rohrabacher. All right.
    Dr. Chameides. Let me just give you one simple example----
    Mr. Rohrabacher. Yeah, you said it. The reason why I 
stopped is to clarify that, because you said it is hard to 
tell----
    Dr. Chameides. No.
    Mr. Rohrabacher. --but----
    Dr. Chameides. There is----
    Mr. Rohrabacher. Okay.
    Dr. Chameides. These analyses are difficult, but there are 
many of them. Let me just give you one example that I think 
well illustrates what we are talking about.
    Mr. Rohrabacher. Um-hum.
    Dr. Chameides. There is a glacier in Peru, it is the--I 
will--I am going to do a terrible job. I think it is Quelccaya 
Glacier, that we have been following for rather a long time. 
Ice that had been in that glacier continuously for 6,000 years 
has recently melted. So, in other words, that glacier's ice has 
been sitting there for 6,000 years, through the medieval warm 
period, all this other stuff----
    Mr. Rohrabacher. Um-hum.
    Dr. Chameides. --and now it is melted. Those kinds of--that 
kind of information sort of indicates to me, more than sort of 
for me, anyway, that something unusual is going on.
    Mr. Rohrabacher. Dr. Curry, do you agree with that?
    Dr. Curry. Well, the issue of trying to infer globally what 
the climate was like, you know, 1,000 years ago is very, very 
difficult, you know, and so we have regional expressions, such 
as what was mentioned. But how to infer what was going on 
globally, you know, the estimates are very indirect, and, 
again, there----
    Mr. Rohrabacher. Well, especially mankind's--when people 
are advocating not just that we are in some kind of a warming 
trend--I don't know anybody that denies that we have gone 
through warming and cooling trends, but how much of this has 
anything to do with human activity, and gives an excuse, by 
government, to control human activity, meaning our lives and 
our freedom? There is no way to know whether that glacier was 
melting as a result of a natural trend, or by the fact that too 
many people drive cars now, and too much combustion from--too 
much CO<INF>2</INF>. There is no way to know what that--what 
actually caused that glacier to go back.
    Now, let me ask--people have told me that this melting in 
the Arctic, that we actually had very similar meltings in the 
Arctic in the 1930s. Is that correct?
    Dr. Curry. Actually, the analogy was in the 1950s we saw a 
melt back in the western Arctic, the European Arctic, that 
wasn't quite as big as today. But in terms of, you know, trying 
to put together this--hemispheric sea ice records prior to the 
satellite era, prior to----
    Mr. Rohrabacher. Um-hum.
    Dr. Curry. --1979 is challenging. And----
    Mr. Rohrabacher. Yeah.
    Dr. Curry. --there is a lot of Russian data that really 
needs to be incorporated. And there is an international effort, 
trying to take the sea ice record back to 1880 in a more robust 
way.
    Mr. Rohrabacher. Okay. And I would like to know--when you 
mentioned, Doctor, that we have the warmest nine years on 
record now in the last nine years, what is on the record mean? 
Where does that start at the----
    Dr. Chameides. I meant----
    Mr. Rohrabacher. --bottom of----
    Dr. Chameides. --the instrumental record, yes.
    Mr. Rohrabacher. Are we talking about the bottom of the 
global cooling era there, those hundreds of years where you had 
that mini-Ice Age? Is that what you are starting there as on 
the record?
    Dr. Chameides. Yes, but it is the warmest.
    Mr. Rohrabacher. Yeah. So on the record there could mean 
something, it could mean nothing. Because----
    Dr. Chameides. Well----
    Mr. Rohrabacher. If we are talking about using a baseline 
that is way below some average, well, then that base--then it 
is irrelevant.
    Dr. Chameides. Well, your point is well taken, but the 
other data that we have, this paleo climate data, would 
indicate that the temperatures we have seen, not necessarily on 
a decadal time scale, but several decadal time scales, are 
warmer than we have seen for a long, long time. As I said----
    Mr. Rohrabacher. Long, long time?
    Dr. Chameides. --1,000 years, 2,000 years, something like 
that.
    Mr. Rohrabacher. Before mankind existed, there were times 
when more CO<INF>2</INF> was in the air. We had times before 
mankind existed when it was warmer. And when we had, before 
mankind, cycles of warming and cooling. Maybe the sun has 
something to do with it.
    Chairman Stewart. And the gentleman's time has expired.
    Mr. Rohrabacher. Thank you.
    Chairman Stewart. Thank you.
    I would like to thank the witnesses once again for your 
valuable testimony, and for--the Members for their questions. 
The Members of the Committee may have additional questions for 
you, and we will ask you to respond to those in writing, if 
that is the case. The record will remain open for two weeks for 
additional comments and written questions from the Members. 
Witnesses, once again, with our gratitude, you are excused, and 
this hearing is now adjourned. Thank you very much.
    [Whereupon, at 11:20 a.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. Judith Curry

[GRAPHIC] [TIFF OMITTED] 

Responses by Dr. Bjorn Lomborg

[GRAPHIC] [TIFF OMITTED] 
                              Appendix II

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

     Submitted statement by Eddie Bernice Johnson, Ranking Member,
               Committee on Science, Space and Technology

    Mr. Chairman, thank you for calling this hearing today. Climate 
change is one of the greatest challenges facing our Nation, and indeed, 
the entire world. Unfortunately, since the Republican Party took over 
the House in 2011, the issue of climate change has been largely 
ignored. This is a problem that cannot be dismissed. Putting our heads 
in the sand and hoping for the best is a recipe for disaster. So I am 
glad we are having this hearing today, and I hope it is the first of 
many.
    The science surrounding this issue reached a consensus a long time 
ago, and that consensus is that the world is warming and most of that 
warming is being caused by humans. In our own country, organizations 
like the National Academy of Sciences, American Association for the 
Advancement of Science, American Chemical Society, American Geophysical 
Union, American Meteorological Society, American Physical Society, and 
the Geological Society of America have all acknowledged this. Moreover, 
these prestigious organizations have been joined by national academies 
of science from numerous countries around the world, including the 
United Kingdom, France, Germany, Mexico, Canada, Russia, China, Brazil, 
India, and Japan among many others. It has been reported that since 
2007, not a single scientific society of national or international 
standing maintains a formal opinion dissenting from this fundamental 
point. The consensus is literally overwhelming.
    Unfortunately, many of my colleagues in the Majority don't seem to 
have gotten the memo. Many openly dispute the science or allude to some 
unspecified but supposedly vast scientific conspiracy. Others, while 
less conspiratorial, insist that nothing can be done about the problem. 
This is a failure of leadership of the highest order.
    Many prestigious organizations and individuals have laid out the 
terrible economic consequences of inaction, including in recent reports 
by the World Bank and the World Economic Forum. These organizations 
also note that the brunt of these effects will be borne by people 
around the world who can least afford to deal with them. A slow motion 
human tragedy could be unfolding before our eyes, and it is 
unconscionable for us to sit and watch it progress when we know how to 
avoid it.
    So I am happy we are having a hearing on this important issue. I am 
also pleased that the Majority has called a witness, Dr. Lomborg, who 
in both his current testimony and previous testimony in Congress, has 
supported placing a price on carbon and dramatically increasing green 
energy research investments. These types of solutions may not be easy, 
but they are absolutely critical to ensure that we don't pass a 
terrible problem onto our children and grandchildren.
    Mr. Chairman, I hope that this hearing will mark the start of a 
serious conversation on the Committee about climate change, and I hope 
it will be followed by hearings with testimony by the organizations 
I've cited.

                                 <all>

</pre></body></html>
